<html>
<title> - 2010 CENSUS: ASSESSING THE CENSUS BUREAU'S PROGRESS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
          2010 CENSUS: ASSESSING THE CENSUS BUREAU'S PROGRESS

=======================================================================

                             JOINT HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                and the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 11, 2008

                               __________

                           Serial No. 110-172

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                  U.S. GOVERNMENT PRINTING OFFICE
50-095                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
PAUL E. KANJORSKI, Pennsylvania      MICHAEL R. TURNER, Ohio
CAROLYN B. MALONEY, New York         CHRIS CANNON, Utah
JOHN A. YARMUTH, Kentucky            BILL SALI, Idaho
PAUL W. HODES, New Hampshire
                      Tony Haywood, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 11, 2008....................................     1
Statement of:
    Murdock, Steven H., Director, U.S. Census Bureau, accompanied 
      by Arnold A. Jackson, Associate Director for Decennial 
      Census, and James T. Tyler, Chief, Budget Division; Matthew 
      Scire, Director, Strategic Issues, Government 
      Accountability Office, accompanied by David Powner, 
      Director, Information Technology Management Issues; Jason 
      F. Providakes, Ph.D., senior vice president and general 
      manager, Center for Enterprise Modernization, the MITRE 
      Corp., accompanied by Glenn Himes, executive director, 
      MITRE; and Michael P. Murray, vice president, census 
      programs, Harris Corp......................................    14
        Murdock, Steven H........................................    14
        Murray, Michael P........................................    55
        Powner, David............................................    39
        Providakes, Jason F......................................    39
        Scire, Matthew...........................................    22
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     8
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................     5
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York:
        Information concerning content determinations............    74
        Prepared statement of....................................   104
    Murdock, Steven H., Director, U.S. Census Bureau, prepared 
      statement of...............................................    17
    Murray, Michael P., vice president, census programs, Harris 
      Corp., prepared statement of...............................    57
    Providakes, Jason F., Ph.D., senior vice president and 
      general manager, Center for Enterprise Modernization, the 
      MITRE Corp., prepared statement of.........................    42
    Scire, Matthew, Director, Strategic Issues, Government 
      Accountability Office, prepared statement of...............    24
    Waxman, Chairman Henry A., a Representative in Congress from 
      the State of California, prepared statement of.............     3


          2010 CENSUS: ASSESSING THE CENSUS BUREAU'S PROGRESS

                              ----------                              


                        WEDNESDAY, JUNE 11, 2008

        House of Representatives, Committee on Oversight 
            and Government Reform, joint with the 
            Subcommittee on Information Policy, Census, and 
            National Archives, Committee on Oversight and 
            Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the Committee on Oversight and Government Reform) 
presiding.
    Present: Representatives Waxman, Maloney, Kucinich, Clay, 
Watson, Sarbanes, Davis of Virginia, Shays, Turner, Issa, 
McHenry, and Foxx.
    Staff present from the Committee on Oversight and 
Government Reform: Kristin Amerling, general counsel; Karen 
Lightfoot, communications director and senior policy advisor; 
Mark Stephenson and Anna Laitin, professional staff members; 
Earley Green, chief clerk; Jen Berenholz, deputy clerk; Ella 
Hoffman, press assistant; Zhongrui ``JR'' Deng, chief 
information officer; Larry Halloran, minority staff director; 
Jennifer Safavian, minority chief counsel for oversight and 
investigations; John Cuaderes and Larry Brady, minority senior 
investigators and policy advisors; Patrick Lyden, minority 
parliamentarian and member services coordinator; Benjamin 
Chance and Chris Espinoza, minority professional staff members; 
and Ali Ahmad, minority deputy press secretary.
    Staff present from the Subcommittee on Information Policy, 
Census, and National Archives: Darryl Piggee, staff director/
counsel; Michelle Mitchell and Alissa Bonner, professional 
staff members; Jean Gosa, clerk; and Charisma Williams, staff 
assistant.
    Chairman Waxman. The meeting of the joint hearing of the 
committee and the subcommittee will come to order.
    Two months ago, this committee held a hearing to examine a 
contract to use hand-held computers to conduct the 2010 census. 
We learned that due to serious mismanagement, the Census Bureau 
was forced to abandon its plans for the hand-held computers and 
to revert to a paper census. These changes will cost the 
taxpayer up to $3 billion.
    The costly decision to return to a paper census was 
avoidable. For years, the Government Accountability Office and 
others auditors raised concerns about the Census Bureau's 
management of the contract. But the Census Bureau failed to 
respond to these concerns with any sense of leadership or 
urgency.
    At the April hearing, the GAO witnesses described the 
situation as unacceptable and a failure in management. Chairman 
Clay and I called today's hearing to find out what progress the 
Census Bureau has made since early April.
    As promised at the April hearing, the Census Bureau has 
completed a re-plan for the paper-based non-response followup, 
an integrated project schedule and a software testing plan for 
address canvassing. The Bureau also has given its contractor, 
the Harris Corp., a new set of requirements for non-response 
followup. Today we will ask GAO and the MITRE Corp. to provide 
their independent assessment of these plans and whether they 
provide a road map for a successful 2010 census.
    Already there are warning signs of further problems. After 
the April joint committee hearing and at the request of 
Chairman Clay, the Census Bureau directed MITRE to review 
Harris Corp.'s $1.3 billion cost estimate. MITRE concluded that 
the revised contract with Harris Corp. should cost just $726 
million, almost half of the contractor's original estimate.
    The decennial census is an essential, constitutionally 
mandated program. Its results have implications for 
congressional representation and for billions of dollars in 
Federal funding decisions. We cannot afford to get this wrong. 
The 2010 census will take place in less than 22 months. This 
date cannot be changed and it cannot be delayed. The committee 
will not stop its efforts to determine what went wrong, but our 
primary goal today will be getting the census back on track.
    Mr. Davis, I want to recognize you for an opening 
statement.
    [The prepared statement of Chairman Henry A. Waxman 
follows:]

[GRAPHIC] [TIFF OMITTED] T0095.001

    Mr. Davis of Virginia. Thank you, Chairman Waxman, and 
Chairman Clay. I appreciate your calling this hearing to 
continue our committee's oversight into the problems with the 
2010 census.
    As some of us have known for quite some time, and at our 
hearing on April 29th, it was revealed the decennial census is 
in peril. Unfortunately, little has changed since we last met. 
While we do need to continue to examine the root causes of the 
problem, our primary focus needs to be on the future and 
ensuring that the enumeration is successful.
    Mr. Chairman, what worries me the most is that we are still 
no closer to a solution today than we were 2 months ago. There 
is no agreement between the Census Bureau and the prime 
contractor on a revised technology platform. The decision to 
revert to a paper system for non-response followups is still in 
planning stages. We no longer have the luxury of measuring 
progress in months or even weeks. Progress has to come daily, 
with very little room left for further error.
    At the current glacial pace, I am afraid the Bureau will 
not be ready to meet the one deadline that cannot be extended: 
the constitutional mandate to count all Americans in 2010. The 
situation didn't arise yesterday or even last month. GAO warned 
us of this possibility 3 years ago. MITRE's initial report 
containing serious alarms about the technology program was 
issued a year ago. The Census Bureau acknowledged the crisis 8 
months ago. A decision was made to dramatically alter the 
previous census plan 4 months ago. Yet today we have only 
minimal progress toward finalizing critical requirements and 
validating cost estimates for a successful census.
    Still, some of those warnings finally seem to have hit 
home. The Census Bureau and the Commerce Department have 
focused on linger problems with a new sense of urgency. Just as 
importantly, improved communication and cooperation between the 
technology contractor, Harris Corp., and the Bureau reduce the 
risk of continued sideways drift in the implementation of 
critical, time-sensitive census preparations.
    We should bring the same sense of urgency to our efforts to 
get the 2010 census back on track. First and foremost, we need 
to help the Bureau identify and secure the funding needed for 
the revised 2010 census plan. To do that, we need well-
supported, should-cost estimates of key census tasks and 
components. But today we will be confronted with widely 
divergent figures.
    I hope testimony at this hearing clarifies cost 
projections, flushes out conflicting and unsupported 
assumptions and begins to reconcile those important numbers. 
Every minute and every dollar matters as the clock ticks 
relentlessly toward 2010. This hearing and others we will need 
to convene should mark essential benchmarks toward a successful 
census. I look forward to continuing a constructive bipartisan 
approach to these issues.
    [The prepared statement of Hon. Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T0095.002
    
    [GRAPHIC] [TIFF OMITTED] T0095.003
    
    Chairman Waxman. Thank you, Mr. Davis.
    Chairman Clay.
    Mr. Clay. Mr. Chairman, thank you for holding this hearing 
on the progress of the 2010 census.
    The first hearing of the Information Policy, Census, and 
National Archives Subcommittee in the 110th Congress was 
entitled ``Progress of the Reengineered 2010 Census,'' and held 
on April 24, 2007. At that hearing, the subcommittee received 
testimony from the Census Bureau, GAO and the Harris Corp. on 
several issues, including the mobile computing devices, as the 
hand-held computers were called at that time; the Bureau's 
plans to conduct a short-from only census; replacement of the 
long form with the American Community Survey; and the Local 
Update of Census Addresses Program, all critical components of 
the reengineered census.
    At that hearing, GAO expressed concern about the lack of 
performance requirements for the field data collection 
automation program. Since then, we have learned about other 
serious problems, problems that prompted the full committee to 
hold a joint hearing with the subcommittee to examine the 
status of FDCA. The Census Bureau and Harris vowed to work 
together to address this problem.
    Since April 9th, the staff of the committee and 
subcommittee have held a series of briefings with the Census 
Bureau, GAO, the MITRE Corp. and Harris Corp. to get updates on 
the progress made since the hearing. Staff has been assured by 
the Bureau and Harris that progress is being made. We will find 
out today.
    Mr. Chairman, although it is important to know what 
happened and why it happened, my major interest today is in 
solutions; what are the Census Bureau and the contractor doing 
to resolve all outstanding issues and get the 2010 census back 
on track? I do not want to hear excuses. We are running out of 
time. We are less than 2 years away from census day. I expect 
to hear concrete and viable plans today.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T0095.004
    
    [GRAPHIC] [TIFF OMITTED] T0095.005
    
    [GRAPHIC] [TIFF OMITTED] T0095.006
    
    [GRAPHIC] [TIFF OMITTED] T0095.007
    
    [GRAPHIC] [TIFF OMITTED] T0095.008
    
    Chairman Waxman. Thank you very much, Chairman Clay.
    Without objection, the record will stay open for any 
opening statement that Members wish to put into the record.
    We have with us for our witnesses the Honorable Steven H. 
Murdock, the Director of the U.S. Census Bureau. Dr. Murdock is 
the former State Demographer for Texas. He is accompanied by 
Mr. Arnold Jackson, Associate Director for decennial census and 
Mr. Jay Tyler, Budget Director for the Bureau.
    Before we recognize the witnesses, I do want to recognize 
our colleague, Mr. Turner, for an opening statement.
    Mr. Turner. Mr. Chairman, thank you. Thank you for allowing 
me to make a statement. I apologize for running a little bit 
late to get to the hearing. I want to thank you and our ranking 
member for your attention to this issue on the progress of the 
2010 decennial census.
    It has been 2 months since our last hearing on the revamped 
plans for the 2010 census. It has been 2 months, and yet many 
believe we have seen little progress. The Bureau has completed 
their planning for the paper-based census, but little to no 
progress has been made on key programs, such as addressing 
canvassing and non-responsive followup.
    Why is it that we are 1 year removed from the address 
canvassing dress rehearsal and yet the Bureau is just now 
presenting a plan on how to move forward on this aspect of the 
2010 census? Clearly, this plan could have been presented and 
implemented much earlier.
    It has been 4 months since the Bureau changed to a paper 
non-responsive followup, yet the Bureau just settled 5 days ago 
on the requirements of this key aspect in 2010. In fact, it 
will be likely mid-August until we know if the plans that they 
now have for the paper census are even accomplishable.
    Mr. Chairman, the Bureau is measuring success by their 
ability to have plans. We should insist success be measured by 
their ability to run a census and not what they can produce on 
paper. The decennial census is important for every person 
living in the United States. It is important to me and for 
every Member of Congress who wants to understand who their 
constituents are. We should not settle for mediocrity, 
especially when we know this is something that can be done. 
After all, this is our country's 23rd census, so we know what 
we are asking for can be accomplished; we know it can be done.
    I hope this committee continues to oversee this very 
important issue and I appreciate your holding these hearings. 
It is imperative we get to the 2010 decennial census, that it 
get back on track. I yield back the balance of my time.
    Chairman Waxman. Thank you very much.
    Dr. Murdock will be joined by Mr. Arnold Jackson and Mr. 
Jay Tyler. Mr. Matthew Scire is the Director of Strategic 
Issues at the GAO and oversees GAO's work on the 2010 census. 
With him is Mr. David Powner, Director of Information 
Technology Management Issues at GAO. Dr. Jason F. Providakes is 
the senior vice president and general manager of the Center for 
Enterprise Modernization at MITRE Corp. Dr. Providakes has wide 
experience in advising the Federal Government on information 
technology programs. He is accompanied by Dr. Glenn Himes, 
MITRE's executive director. Mr. Michael Murray is vice 
president of census programs at Harris Corp., and is 
responsible for the field data collection automation and MAF/
Tiger programs.
    We are pleased to welcome all of you to our hearing today. 
It is the practice of this committee that all witnesses who 
testify do so under oath. So I would like to ask everyone that 
is going to participate in answering questions and giving 
testimony to please rise and raise your right hands.
    [Witnesses sworn.]
    Chairman Waxman. The record will indicate that all the 
witnesses answered in the affirmative.
    Dr. Murdock, we want to start with you. Your prepared 
statements, and this is true for everyone, will be part of the 
record. We would like to ask, if you would, to try to limit the 
oral presentation to 5 minutes. We will have a clock, I will 
turn it on in a minute, it will be green for 4 minutes, then 
the last minute it will turn yellow, then when the time is up, 
it will turn red. When you see the red light, please plan to 
conclude.
    There is a button on the base of the mic. Be sure it is on. 
We are looking forward to hearing what you have to say.

STATEMENTS OF STEVEN H. MURDOCK, DIRECTOR, U.S. CENSUS BUREAU, 
   ACCOMPANIED BY ARNOLD A. JACKSON, ASSOCIATE DIRECTOR FOR 
 DECENNIAL CENSUS, AND JAMES T. TYLER, CHIEF, BUDGET DIVISION; 
     MATTHEW SCIRE, DIRECTOR, STRATEGIC ISSUES, GOVERNMENT 
 ACCOUNTABILITY OFFICE, ACCOMPANIED BY DAVID POWNER, DIRECTOR, 
INFORMATION TECHNOLOGY MANAGEMENT ISSUES; JASON F. PROVIDAKES, 
 PH.D., SENIOR VICE PRESIDENT AND GENERAL MANAGER, CENTER FOR 
ENTERPRISE MODERNIZATION, THE MITRE CORP., ACCOMPANIED BY GLENN 
 HIMES, EXECUTIVE DIRECTOR, MITRE; AND MICHAEL P. MURRAY, VICE 
            PRESIDENT, CENSUS PROGRAMS, HARRIS CORP.

                 STATEMENT OF STEVEN H. MURDOCK

    Mr. Murdock. Thank you, Mr. Chairman, members of the 
committee. I would like to thank all of you for the opportunity 
to brief you again on the status of the 2010 census, and in 
particular, our ongoing efforts to address the problems 
associated with the Field Data Collection Automation [FDCA], 
program.
    Recent hearings have appropriately focused on our contract 
with the Harris Corp. and our efforts to rescope the FDCA 
program. As you know, addressing the problems associated with 
FDCA has been my priority since I arrived just a little over 5 
months ago. After the problems became clear, I established the 
risk reduction task force, chaired by former Deputy Director 
William Barron. The task force's work was then reviewed by an 
expert panel established by the Secretary. The task force's 
recommendations were confirmed by the expert panel and the 
Secretary made the decision that we should move forward on a 
paper-based non-response followup operation, while retaining 
the use of the hand-held computers in address canvassing.
    In addition to our decision to move to a paper-based non-
response followup operation, we have been laying the groundwork 
to ensure that the remaining FDCA operations are successful. We 
are making progress in our work with Harris and have begun 
embedding Census Bureau staff in Harris' operations and 
incorporating staff from Harris into the 2010 census 
operations. As a result, communication has improved. We 
produced our final requirements for the paper-based NRFU 
operation on June 6th, and we have secured an agreement with 
Harris to provide their final cost estimates by July 15th.
    We also have initiated a contingency planning process that 
is assessing our options relative to the FDCA process and 
contract. You will hear today about the independent cost 
estimate we asked MITRE Corp. to develop as part of our 
preparation for the upcoming negotiation with Harris, which we 
initiated in response to subcommittee Chairman Clay's 
recommendation. This work by MITRE has been extremely valuable 
to us.
    As we work with Harris to finalize the terms for building 
and implementing an efficient and successful FDCA system, we 
will consider the independent cost estimate, as well as the 
specific information in Harris' cost estimate, and our own 
understanding of the critical functionality that the FDCA 
system must contain to ensure a successful 2010 census. My 
commitment to the committee is that our final contract will be 
clearly justified and that our management of the contract will 
be transparent and rigorous.
    I last appeared before this committee on April 9th. At that 
time, I committed the Census Bureau to meeting three 
significant deliverables. In 30 days, we would produce the 
detailed plans for the paper-based NRFU operation. This was 
necessary because of the decision to change the operation that 
had been made by the Secretary.
    In 45 days, we pledged to complete development of an 
integrated schedule for all 2010 census operations. This was 
needed due to the effects of the changes in the 2010 design, 
their impacts on other parts of the census operations.
    Finally, we committed that in 60 days, we would establish 
the testing plan for the address canvassing operation. This was 
necessary because the task force had indicated and the expert 
panel concurred that the existing plan for testing needed 
supplementation. Since that hearing, our decennial census staff 
has worked around the clock, and I am proud to report that we 
met our deadlines for completing each of these three building 
blocks. As you requested, Mr. Chairman, we also have briefed 
your staff on each of these deliverables.
    In addition, we finalized the 2010 project management plan, 
developed the 2010 census risk register and finalized the 2010 
census risk management plan. This is a substantial body of 
work, and it reflects the commitment of the Census Bureau staff 
and leadership to establishing a framework to ensure a high 
quality 2010 census. I am submitting each of these products for 
the record.
    This work does not begin to cover the full range of 2010 
census operations. But the fundamental components of our work 
to address the problems with FDCA are now in place, and key 
work products are at or nearly completed to ensure a successful 
2010 census. It is important to remember that the FDCA contract 
is only part of the 2010 census. Mr. Chairman, in our work 
together, it is vital for this committee to be fully appraised 
on the full range of ongoing decennial census operations. I 
will come back to the committee to discuss other crucial 
operations, including the communications program, the 
partnership program, the local update of census addresses 
program, and other automated systems.
    Thank you for the opportunity to bring you up to date on 
the 2010 census. I am joined by Arnold Jackson, the Associate 
Director for decennial census, and Jay Tyler, chief of our 
Budget Division. We will be happy to take your questions.
    [The prepared statement of Mr. Murdock follows:]

    [GRAPHIC] [TIFF OMITTED] T0095.009
    
    [GRAPHIC] [TIFF OMITTED] T0095.010
    
    [GRAPHIC] [TIFF OMITTED] T0095.011
    
    [GRAPHIC] [TIFF OMITTED] T0095.012
    
    [GRAPHIC] [TIFF OMITTED] T0095.013
    
    Chairman Waxman. Thank you very much, Dr. Murdock.
    Mr. Scire.

                   STATEMENT OF MATTHEW SCIRE

    Mr. Scire. Mr. Chairman, members of the committee and 
subcommittee, thank you for the opportunity to be here today to 
discuss the 2010 decennial census. With me is David Powner, 
Director with GAO's Information Technology Team, who has been 
reviewing the Census Bureau's major information technology 
investments.
    Two months ago, we appeared before this committee to 
discuss the Bureau's plans for conducting the 2010 census. We 
highlighted a number of challenges the Bureau faced and the 
need for action along several fronts, including the redesign of 
the largest census field operation non-response followup.
    Today we can report that the Bureau has taken some 
important steps toward preparing for 2010, though there remains 
uncertainty and substantial risk. In April, the Director set 
the Bureau on a path to produce three documents intended to 
strengthen implementation of the 2010 census. The Bureau has 
produced them, and as a result of this committee's continuing 
attention, the Bureau is another step closer to being prepared 
for conducting the 2010 census.
    I will briefly outline some of the steps the Bureau has 
taken and some of the uncertainty that remains. Last April, we 
noted that moving to a paper-based, non-response followup 
operation would mean that the Bureau may be unable to conduct a 
full dress rehearsal of its critical and largest field 
operation. At that time, we said it would be important for the 
Bureau to specify how it would provide assurance that this 
operation will be tested in the absence of a full dress 
rehearsal.
    On May 8th, the Bureau produced a NRFU operational concept 
which provides an overview of the major activities, information 
flows and systems that will be needed to complete non-response 
followup operations. However, it is not certain when and how 
the Bureau will test its revised plans for this operation.
    In April, we also said that the Bureau needed to establish 
plans for working around limitations in the technology to be 
used in address canvassing. The Bureau has done more to 
describe its work-around for large blocks, and last Friday 
produced an address canvassing testing plan. This plan 
describes various testing of operations and systems, including 
testing of software to be used in large blocks. The plan also 
envisions conducting a partial re-do of the dress rehearsal to 
validate the functionality of the entire system.
    I will defer to my colleague in describing the Bureau's 
plans for testing this key field data collection automation 
system.
    Three weeks ago, the Bureau produced an integrated schedule 
of over 11,000 activity milestones, as well as a summary of 175 
key operational milestones. Nonetheless, the Bureau does not 
include among its list of key milestones a date when it expects 
to complete testing of its systems and operations for non-
response followup. Last week, the Bureau produced a revised 
summary of high-level risks. But it has yet to assess project 
risk associated with its movement to a paper-based operation.
    We are currently reviewing in greater detail the summary of 
key milestones, the integrated schedule of milestones as well 
as the recently completed risk management documentation. Going 
forward, it will be important for the Bureau to ensure that 
among the key milestones and activities highlighted for 
oversight are those whose success or failure represent the 
greatest impact on the ultimate cost and quality of the 2010 
census.
    The Bureau has taken some additional steps to manage its 
revised operations. It added temporary action officers to its 
2010 governance structure. These officers ensure tasks and 
milestones for six key objectives, including preparing a 
testing plan, are met. The Bureau has also established regular 
status reporting from teams and action officers and the Bureau 
Director has a standing weekly meeting with the Deputy 
Secretary.
    In April, we emphasized the urgent need for the Bureau to 
address significant and longstanding weaknesses in managing 
information technology. We do so again today. In April, we said 
that the Bureau needed to finalize requirements for its field 
data collection automation contract. Today, the Bureau has 
finalized these requirements, but does not expect to finalize 
costs until mid-August. Going forward, it will be important for 
the Bureau to aggressively manage its key information 
technology investments.
    I will turn it over to Mr. Powner to expand on this. Before 
I do, I want to thank you again for the opportunity to speak to 
you today. As in the past, we look forward to supporting this 
committee's efforts. I would be glad to take any questions that 
you may have.
    [The prepared statement of Mr. Scire follows:]

    [GRAPHIC] [TIFF OMITTED] T0095.014
    
    [GRAPHIC] [TIFF OMITTED] T0095.015
    
    [GRAPHIC] [TIFF OMITTED] T0095.016
    
    [GRAPHIC] [TIFF OMITTED] T0095.017
    
    [GRAPHIC] [TIFF OMITTED] T0095.018
    
    [GRAPHIC] [TIFF OMITTED] T0095.019
    
    [GRAPHIC] [TIFF OMITTED] T0095.020
    
    [GRAPHIC] [TIFF OMITTED] T0095.021
    
    [GRAPHIC] [TIFF OMITTED] T0095.022
    
    [GRAPHIC] [TIFF OMITTED] T0095.023
    
    [GRAPHIC] [TIFF OMITTED] T0095.024
    
    [GRAPHIC] [TIFF OMITTED] T0095.025
    
    [GRAPHIC] [TIFF OMITTED] T0095.026
    
    [GRAPHIC] [TIFF OMITTED] T0095.027
    
    [GRAPHIC] [TIFF OMITTED] T0095.028
    
    Chairman Waxman. Thank you very much.
    Mr. Powner.

                  STATEMENT OF DAVID A. POWNER

    Mr. Powner. Chairman Waxman, Mr. Clay, Ranking Members 
Davis, Turner and members of the committee, thank you for 
holding this hearing. I have a few brief comments to make on 
the FDCA re-plan.
    First, Commerce Department Executive Director Murdock and 
Mr. Jackson deserve credit for strengthening the FDCA program 
office leadership and governance. They have assigned a seasoned 
program manager to the FDCA program, hired an IT expert to help 
in overseeing the contractor and have improved oversight of and 
communication with the contractor.
    In addition, their use of MITRE in evaluating FDCA costs 
and providing expert advice in other areas has greatly assisted 
in contractor oversight.
    Regarding FDCA's costs, the difference between the Harris 
rough order of magnitude estimate of $1.3 billion and MITRE's 
independent estimate of $726 million raises significant 
questions and concerns. Starting with some history here, MITRE 
provided independent cost estimates on the FDCA program prior 
to contract awarded in April 2006 and again in the fall of 
2007. Both of those estimates turned out to be roughly $20 
million higher than Harris' estimates at that time. This is 
typical, as independent estimates are usually higher than 
program or contractor estimates.
    We agree with Mr. Murray's written statement, which says we 
should not expend too much energy comparing the rough order of 
magnitude estimate to the detailed estimate and that the key 
comparison needs to occur after Harris delivers their detailed 
estimate on July 15th. I would like to stress that it is 
extremely important to have this estimate by mid-July to have 
ample time to analyze and reconcile the estimates and to 
explore all options. But given how MITRE and Harris estimates 
have been relatively similar over the past 2 years, to have a 
nearly $500 million to $600 million delta at this point in time 
is mind-boggling and makes no sense. These differences need to 
be reconciled. Moving forward, it is important that once Harris 
delivers their detailed estimate by mid-July that these 
estimates and their assumptions are completely understood and 
reconciled so the Government can explore all options and 
aggressively renegotiate a reasonable, revised contract cost 
for the FDCA program.
    Mr. Chairman, thank you for your oversight and I look 
forward to your questions.
    Chairman Waxman. Thank you very much, Mr. Powner.
    Dr. Providakes.

                 STATEMENT OF JASON PROVIDAKES

    Mr. Providakes. Good morning. Thank you for the opportunity 
you have given to the MITRE Corp. to update the committee on 
the U.S. Census Bureau's progress in achieving successful 2010 
decennial census.
    Today I will focus on the progress since we appeared before 
this committee on April 9th. Accompanying me today is my 
colleague, Dr. Glenn Himes, the executive director of civilian 
agencies at MITRE, plus enterprise modernization as well.
    The MITRE Corp. is a not-for-profit organization chartered 
to work in the public interest. MITRE manages three federally 
funded research and development centers [FFRDCs], one for the 
Department of Defense, one for the Federal Aviation 
Administration and one for the Internal Revenue Service. A 
federally funded research and development center is a unique 
organization that assists the U.S. Government in scientific 
research and analyses, development and acquisition and/or 
systems engineering integration of large programs.
    FFRDCs are established and designed for the purpose of 
engaging with Government, over the long term, to address these 
long-term, complex problems. FFRDC operates in the public 
interest with objectivity, independence, freedom from conflict 
of interest and full disclosure of their affairs to their 
respective Government sponsors. It continues to be our 
privilege to serve with the talented engineers and other 
professionals who support the Census Bureau in its efforts to 
prepare for the 2010 census.
    We are pleased to report today that the Bureau has 
demonstrated substantial improvements in the last 2 months. In 
April 2008, the Director of Census Bureau asked MITRE to 
provide recommendations on how to improve the Bureau's 
management of the FDCA program. MITRE worked with the census 
leaders to define and implement a program improvement road map 
that consisted of plans, schedules and processes. Census 
assigned action offers to lead and be accountable for progress 
in each area. Each action officer developed milestones and 
reported status to the Director on a regular basis.
    Although these activities began only 2 months ago, 
substantial progress has been accomplished. Census developed or 
updated its program management plan, its risk management 
process, its communications plan, a program testing plan and an 
integrated schedule over the past 2 months. An operations 
center and Web site are being developed to improve access to 
key program status and information for full transparency. 
Managers are responding quickly to requests for document 
reviews and approvals, which is creating a faster decision 
tempo. As a result, the Census Bureau has improved its ability 
to monitor and control its programs.
    The decision to implement a paper-based non-response 
followup operation represented a major change to the decennial 
census that required substantial changes to existing plans. In 
only 2 months, census developed and delivered an operational 
concept that depicts the major steps in the non-response 
operations and highlights the related information flows. The 
documentation describing the reduction in scope for the paper-
based non-response followup was delivered to the Harris team on 
schedule on June 6, 2008. Accomplishing these urgent activities 
was another major accomplishment for the Census Bureau.
    Finally, based on a request from this committee, the 
Director of the Census Bureau asked the MITRE Corp. to update 
the estimated costs of the FDCA contract to account for 
changes, primarily reductions in the scope of the program. 
MITRE completed the update in May. Our estimate of the life 
cycle costs for FDCA is $726 million. This is substantially 
lower than the rough order of magnitude estimate of $1.3 
billion provided by the contract of the Harris Corp. The 
assumptions behind our cost estimate and the general 
methodology have been reviewed by members of your staff, the 
Government Accountability Office, the Office of Management and 
Budget, the Department of Commerce, the Commerce Office of 
Inspector General and the Bureau of Census and the Harris Corp.
    MITRE has high confidence that the program can be 
accomplished at the estimated cost. Although some of the check 
technologies that are relevant to the program have changed in 
the past 2 years, we believe technology is sufficiently mature 
to perform the program at the estimated costs. Our confidence 
in our estimate is not based solely on the maturity of our cost 
model. Our confidence is also based on our ability to develop a 
technical reference model that can be rapidly implemented of a 
proof of concept demonstration on a commercially available 
hand-held computer.
    We remain committed to helping the Census Bureau overcome 
the current challenges to the FDCA program to enable a 
successful census. Thank you for inviting us to this hearing. 
We would be happy to answer all your questions.
    [The prepared statement of Mr. Providakes follows:]

    [GRAPHIC] [TIFF OMITTED] T0095.029
    
    [GRAPHIC] [TIFF OMITTED] T0095.030
    
    [GRAPHIC] [TIFF OMITTED] T0095.031
    
    [GRAPHIC] [TIFF OMITTED] T0095.032
    
    [GRAPHIC] [TIFF OMITTED] T0095.033
    
    [GRAPHIC] [TIFF OMITTED] T0095.034
    
    [GRAPHIC] [TIFF OMITTED] T0095.035
    
    [GRAPHIC] [TIFF OMITTED] T0095.036
    
    [GRAPHIC] [TIFF OMITTED] T0095.037
    
    [GRAPHIC] [TIFF OMITTED] T0095.038
    
    [GRAPHIC] [TIFF OMITTED] T0095.039
    
    [GRAPHIC] [TIFF OMITTED] T0095.040
    
    [GRAPHIC] [TIFF OMITTED] T0095.041
    
    Chairman Waxman. Thank you very much.
    Mr. Murray.

                 STATEMENT OF MICHAEL P. MURRAY

    Mr. Murray. Chairman Waxman, members of this distinguished 
committee, thank you for the opportunity to update you on 
Harris Corp.'s role in supporting the U.S. Department of 
Commerce and the Census Bureau in the modernization and 
automation of the 2010 decennial census.
    In April, we reported to this committee on the status of 
the field data collection automation project for which Harris 
is providing contract support. At that time, we were working 
with the Census Bureau to address the next steps in this 
critical project. I would like to provide an update on our 
progress in supporting the most technologically advanced census 
in our country's history.
    Together we are making solid progress toward the 
implementation of a fully integrated system for the 2010 
decennial census. The Harris team is confident that based on 
progress to date, both the mobile computing environment and the 
office computing environment will be ready to support a 
successful decennial address canvassing operation. The dress 
rehearsal address canvassing conducted in April 2007 was a 
valuable field operational test. Some items worked very well. 
For example, the hand-held computers used in dress rehearsal 
were intuitive, secure and easily used by people with limited 
experience. Map spots were collected for over 500,000 
addresses. The Harris team demonstrated the ability to 
successfully provide secure, over-the-air software upgrades 
during operations to correct problems and maintain operational 
effectiveness.
    The dress rehearsal provided insight and feedback into 
areas where improvements were needed, which was the reason for 
conducting dress rehearsal. Since that time, Harris has worked 
closely with the Census Bureau to incorporate these needed 
improvements.
    There are three key accomplishments that have been 
completed since the last hearing: the completion of the system 
requirements review, the completion of the detailed design 
review and the start of the production process for the 150,000 
address canvassing hand-held computers. These milestones 
reflect the most recent progress and there are other important 
milestones that must be met in the coming months.
    For example, by December of this year, just six short 
months from now, we must ensure that 150 early local census 
offices are in place and fully integrated into a nationwide 
census network in support of the decennial address canvassing 
operation. This is a milestone that will require tremendous 
cooperation and will mark a significant achievement toward the 
2010 decennial census goal.
    In recent weeks, there have been questions about the 
differences in cost estimates provided for this project. I 
would like to address these differences and explain how they 
arose. In January, Harris was asked to provide a rough order of 
magnitude [ROM], to project the total budget impact as a result 
of the updated requirements. Harris developed this ROM over a 
short, 2-week period.
    In April, the Census Bureau tasked a separate contractor, 
the MITRE Corp., with developing an independent Government cost 
estimate model in response to the subcommittee's 
recommendation. There are significant differences between the 
ROM delivered by Harris and the estimate prepared by MITRE. 
However, the numbers projected separately by Harris and MITRE 
cannot be compared because they were based on independent 
assumptions. Harris is jointly working with the Census Bureau 
to develop a detailed proposal consistent with the requirements 
which will include the updated program costs. The updated 
program cost, developed with complete transparency, will be 
formally delivered to the Census Bureau in mid-July.
    I would also like to note several positive changes that 
have taken place in the relationship between the Department of 
Commerce, the Census Bureau and Harris Corp. over the last 2 
months that are making a difference in the long-term success of 
this project. Specifically, through enhanced communication and 
collaboration, we are making more timely decisions, elevating 
and resolving problems, and are setting the framework for a 
more structured program execution.
    Finally, I would like to remind both the committee and our 
colleagues that we have a shared goal, and that is to ensure 
the 2010 decennial census is the most accurate, most complete 
and most secure in our Nation's history. We are grateful to 
Secretary Gutierrez and Director Murdock for their commitment 
in fostering commitment and collaboration. Time is of the 
essence, and we must focus on the important benchmarks and 
near-term milestones that we will need to meet in the coming 
months to reach that shared goal.
    Mr. Chairman and members of the committee, I appreciate the 
opportunity to testify before you, and look forward to 
answering your questions.
    [The prepared statement of Mr. Murray follows:]

    [GRAPHIC] [TIFF OMITTED] T0095.042
    
    [GRAPHIC] [TIFF OMITTED] T0095.043
    
    [GRAPHIC] [TIFF OMITTED] T0095.044
    
    [GRAPHIC] [TIFF OMITTED] T0095.045
    
    Chairman Waxman. Thank you very much, Mr. Murray. I thank 
all of you for your presentation to us.
    In March, the Government Accountability Office designated 
the decennial census as a high-risk area. This came after years 
of warning from GAO about weaknesses in operational planning, 
contract management and cost estimation, among other issues. At 
our April hearing, the GAO witnesses warned that the redesign 
of the decennial census created new risks that the Census 
Bureau would need to manage. Asked about the specific risks 
that he would focus on, Mr. Powner listed stabilizing 
requirements for the Harris contract, managing the interfaces 
between systems, and the need for extensive testing.
    Mr. Scire and Mr. Powner, it has been 2 months since you 
flagged these risks at our last hearing, has the Census Bureau 
taken adequate action to mitigate these risks?
    Mr. Powner. Regarding the requirements, there has been a 
fair amount of work, and credit, as Dr. Providakes pointed out, 
is warranted here in the requirements area. I would refer to 
the requirements as stable now. There still will be some 
changes, but we are not in a requirements instability phase. So 
good progress there.
    In regard to the interfaces and the testing, there is still 
a lot of work that remains. Those test plans need to be put in 
place, then ultimately the execution of those test plans are 
where the rubber is really going to meet the road, and we are 
going to see whether there is progress with actual data in 
hand.
    So testing is still a major TBD.
    Chairman Waxman. Let me ask a question more generally. What 
are the key risks still facing the decennial census as a whole, 
and what more would you do to mitigate them?
    Mr. Powner. There are several key risks. First of all, I 
think we need to come to agreement on the cost here. This wide 
range, I know we have a delta, we need the final estimate from 
Harris in mid-July, then really reconcile those differences, 
because there are opportunities to whittle that cost down from 
the $1.3 billion.
    Going forward, schedule is the major risk. There is a lot 
to do with little time. So we are going to face schedule risks 
in all these areas, whether it is the technologies, and I will 
defer to Mr. Scire to talk about getting the key operations in 
place.
    Chairman Waxman. Mr. Scire.
    Mr. Scire. What I would add to that is, the key areas that 
we think need to be focused on are the non-response followup 
operations and the testing that they need to do to demonstrate 
that they will be ready to go forward with this paper-based 
operation. We don't yet see the specifics in terms of plans for 
how they are going to test or what sort of assurances that they 
will be providing for you, that they will be prepared to 
conduct non-response followup.
    I would also draw attention to the operations control 
system, which is another deliverable for the contractor. And of 
course, that is the brains of the operation. It is used in all 
the different field operations. It has had some problems in its 
use in the paper-based operations that have been tested so far, 
where the field ended up having to work around and use manual 
systems.
    So I think it important that we keep attention on the 
progress in getting the operations control system in place and 
for demonstrating that it will perform what is expected of it.
    Chairman Waxman. Thank you.
    Dr. Murdock and Mr. Jackson, would you care to respond? Do 
you agree that these are the key risks to the Decennial moving 
forward?
    Mr. Murdock. Certainly these are very important risks that 
we are taking very seriously and making very concerted efforts 
to address them. I will let Mr. Jackson talk in more specific 
terms.
    Mr. Jackson. Mr. Chairman, the risks that were cited I 
think were cost, schedule and testing. Cost will be negotiated 
in the July 15th replan negotiations. We are very confident 
moving forward that we will be able to reconcile what might 
appear to be major differences. Now there are, as Harris Corp. 
pointed out, and MITRE, assumption differences that need to be 
reconciled. Our approach has been to not pre-negotiate or to 
negotiate in public but to take the MITRE information and to 
seek a fair price for the work we need when those negotiations 
ensue July 15th. I am confident that we will be able to do 
that.
    Second, regarding schedule, schedule is tight. The 
decennial census process is typically done in the framework of 
a tight schedule. We are in the process, however, of developing 
contingencies and rapid decisionmaking, other tools and 
techniques to try to mitigate the risks of a tight schedule. 
But I would not deny that the schedule is tight and has gotten 
tighter as we have heeded GAO's recommendations and MITRE's to 
do more testing, which I think was the third risk mentioned.
    In the whole area of testing, our testing program is 
targeted around the sequence of operations that need to be 
done. According, the address canvassing operation, which 
launches next April, we do have a test plan, and to date, the 
interfaces part of that plan has been completed. While we would 
prefer to have it all done, we will then proceed to non-
response followup testing, which will start in January 2009. We 
are still, as was said earlier, working toward a firm end date.
    I would just say, as a note on the non-response followup, 
when we remove the hand-held computer and return to a paper-
based non-response followup, while the need for testing did not 
diminish, it certainly declined in terms of its importance, in 
a sense. We have done paper-based non-response followup many 
times, and that is just one point. The real point is that the 
remaining systems in non-response followup are very similar to 
the back-end systems that are in address canvassing. You have 
heard mention of paper-based operations. Well, that is what 
non-response followup is.
    So the testing that is now left to be done of the automated 
systems will be done, it will be rigorous. However, we bear the 
benefit of those systems mirroring the systems that back up 
address canvassing.
    Chairman Waxman. Thank you very much.
    Mr. Davis.
    Mr. Davis of Virginia. At the last hearing, talking to Mr. 
Murdock, the April 9th hearing record I think is unequivocally 
clear in pointing to the failure of the Bureau to identify, 
articulate and deliver to Harris in a timely manner the 
requirements that were needed. Although the Bureau was turning 
to a paper-based system, there remained several technology 
aspects of the FDCA program that have yet to have all the 
requirements fully defined. At the last hearing, you indicated 
to this committee that the only FDCA requirements remaining 
were those having to do with the decision to revert to a paper-
based NRFU. We have documentation that shows this is really not 
the case.
    Why is it that the Bureau continues to change the NRFU 
requirements at this late date, after testifying that it 
wouldn't?
    Mr. Murdock. When we look at these requirements, we see 
them, many of them, as clarifications. I think one of the great 
strides forward that we have had in the last couple of months 
is working out with the Harris Corp. our disagreements, if you 
will, our differences relative to how we evaluate specific 
aspects of our program. That is one of them. We believed at the 
time and we believe now that those are not new requirements; 
but rather, in many cases they were specifications or 
clarifications of the requirements.
    Mr. Davis of Virginia. Isn't it reasonable to say the 
program remains in crisis until the requirements process is 
really wrapped up?
    Mr. Murdock. We believe the requirements process is 
basically wrapped up. We provided the last set of requirements, 
and I think Mr. Murray would agree with us, we have basically 
clarified that and there are not questions out there, to any 
great extent, on differences in requirements.
    Mr. Davis of Virginia. In most cases, you are still adding 
costs and changing the scope of the program by adding 
requirements, even if you define the requirements needs of the 
Bureau as only clarifications. Now, considering the increased 
costs and the expanded scope, do you agree that the amount of 
clarifications need to be kept to a minimum?
    Mr. Murdock. We certainly are trying to stabilize the 
program to ensure that we all have a clear and consistent and 
agreed-upon road map going forward. I believe that is 
happening.
    Mr. Davis of Virginia. What do you have in place to make 
sure that requirements, both new and clarifications, are kept 
under control?
    Mr. Murdock. We have a very clear process of 
decisionmaking; we have created a management plan that requires 
that changes go through a change review process; and that 
process goes through several layers of decisionmakers to ensure 
that any changes that are made are absolutely essential. They 
end up on Mr. Jackson's desk, where he makes the ultimate 
decision regarding such potential changes.
    Mr. Davis of Virginia. Why is it taking so long to finalize 
the requirements for address canvassing?
    Mr. Murdock. We believe those are finalized. As I indicated 
a minute ago, there were disagreements about some of those, but 
we believe that process is basically completed now.
    Mr. Davis of Virginia. Well, the dress rehearsal ended in 
June 2007. You supposedly had the final requirements identified 
in January 2008. But we are still negotiating requirements or 
clarifications. Given the amount of time from the dress 
rehearsal until now, are you telling me now that we are through 
with the requirements, that this is the clarifications, that it 
is done as we sit here today? Or are there still clarifications 
and issues that we have not come to closure on?
    Mr. Murdock. We believe that the requirements have 
basically been resolved to both of our--we agree to them and 
that we basically have resolved those issues and that we are 
today sitting at a place where we know jointly, ourselves and 
the Harris Corp., where to go, how to get there and are 
proceeding to do so.
    Mr. Davis of Virginia. Let me ask the other participants, 
do you agree with that? Mr. Powner.
    Mr. Powner. Regarding the requirements, there were 
requirements delivered on January 16th and June 6th. Now, are 
they perfectly locked down? No. There are still some 
requirements that are trickling in. Our analysis of this 
situation----
    Mr. Davis of Virginia. So the key word there is basically, 
meaning it is not done yet, right?
    Mr. Powner. There are still clarifications that are going 
on. I would refer to the requirements situation now as stable. 
There still are some changes going on, some clarifications, but 
overall where we have been, the requirements aren't perfectly 
locked down, but we are a lot closer. I think we are at a point 
now where we actually can move forward with a reasonable cost 
estimate from the Harris Corp. That is the way we view it. I 
know there are a lot of different opinions about whether these 
are new requirements or not. Our take on this is consistent 
with the Director's, that most of the discussion is around 
those January 16th requirements being clarified. I would not 
refer to those as new requirements, but they are just 
discussions that are ongoing to make sure they are well 
understood.
    Mr. Davis of Virginia. Mr. Chairman, can I juste ask one 
additional question? For the Bureau, last week you unveiled a 
test planning for address canvassing, even though you have 
known about address canvassing problems since the dress 
rehearsal ended in June 2007. Why are we just now getting 
around to focusing on the problems of address canvassing?
    Mr. Murdock. Among the reasons for re-addressing that issue 
is the task force and the expert panel that reviewed the 
assessment of the task force, and the task force had indicated 
that there needed to be supplementation of the testing program, 
not only in address canvassing, but in other parts as well. So 
we could not, until we had evaluated the suggestions of the 
task force, complete that testing program. We have done that in 
a very expedited fashion.
    Mr. Clay [presiding]. Thank you.
    Mr. Murdock, I commend you and your staff for the hard work 
you have put toward getting the census back on track. At the 
April 9th joint hearing, the Bureau stated that it had not 
scrubbed the numbers provided by Harris in the rough order of 
magnitude. What are the Bureau's plans for verifying the cost 
estimate that Harris will submit on July 15th, and how do you 
plan to analyze the figures?
    Mr. Murdock. We have done a number of things related to 
that. As you know, in accordance with really sound practices, 
just as we had had, before we let the contract, we had a cost 
estimate done. We repeated that process and as you know, had 
MITRE complete an independent Government cost estimate for us 
to indicate what they thought of the reformulated program, what 
the costs were.
    We have in turn obtained the services of a contractor that 
is an expert in the area of IT and in the costs related to IT. 
Mr. Jackson will in concert with such other professionals and 
processionals in our organization be taking the cost estimate, 
be taking the cost proposal as it is developed by the Harris 
Corp. and working toward a cost proposal and for a contract 
that we think successfully will get us to a successful census 
and that is appropriate relative to work to be done.
    Mr. Clay. Mr. Powner, to quote your testimony, you found 
that $500 to $600 million difference is mind-boggling and makes 
no sense. At the April 9th hearing, I requested that GAO 
analyze the cost estimate. I would like to make that same 
request today. What are your plans for verifying the cost 
estimate to be submitted on July 15th?
    Mr. Powner. We have been through the MITRE estimate in 
great detail, and once the Harris estimate is delivered, we 
plan to brief your staff on our findings on where the 
differences are and why we have differences. I can tell you 
right now that there are some different assumptions, and our 
written statement points this out, in the areas of software 
development and common support. There are different assumptions 
made on the amount of software development that needs to be 
completed between now and the 2010 census. And also, when you 
look at common support, there are differences in terms of the 
level and numbers of middle level management associated with 
the contract. So those are some areas that we are going to be 
focused on keenly.
    Mr. Clay. Thank you.
    Mr. Murray, given the urgency of this matter, is there any 
way to complete contract negotiations before August 15th?
    Mr. Murray. One of the key steps that we are taking in 
working with the Census Bureau is we have invited them in, and 
they have started to attend our actual proposal development. So 
they are participating in, day to day with us, reviewing our 
basis of estimates, and looking at the details that we are 
preparing. We have also worked with them to determine, 
developing more of a streamlined technical approach and 
technical proposal that can be provided, so that we can first 
meet the dates of July 15th. After July 15th to August 15th is 
the time to actually definitize. So in order to speed up the 
definitization process, the key thing that needs to be done is 
to make sure that you have that continued involvement up to 
July 15th, so that on July 15th when the proposal is submitted, 
there are no surprises to the Bureau.
    We have followed that process on the MAF/Tiger program, 
where we worked the proposal jointly with the Census Bureau. We 
are trying to do that the same on the FDCA program. On MAF/
Tiger, when we submitted a final proposal, it was close to 
accept as is. There were some questions and some clarifications 
that had to followup after we submitted it. But the actual 
definitization of that contract went very quickly, because we 
had side by side involvements throughout the process in 
developing the proposal. We are doing that today with the 
Census Bureau.
    Mr. Clay. Is that a yes or a no? Can you complete 
negotiations by August 15th?
    Mr. Murray. Can we complete negotiations?
    Mr. Clay. Before August 15th, considering the urgency.
    Mr. Murray. We can complete by August 15th.
    Mr. Clay. You said you are starting the production process 
of the hand-helds.
    Mr. Murray. Correct.
    Mr. Clay. Does the Bureau know the functionality of the 
hand-helds and actually agree with Harris as it relates to the 
hand-held devices? Does the Bureau know what they are 
purchasing and do you know what the Bureau wants?
    Mr. Murray. What I was referencing in my testimony is the 
actual production of the hardware device itself. The Bureau is 
aware of that. They have been engaged in the development of 
that device and they understand what they are getting with the 
hand-held itself. The next step, then, and what we are working 
on right now, is the actual software application that rides on 
top the hand-held. The hardware device itself is stable, and 
the high-tech computing corp is off procuring the material to 
go build those devices so we can get them in. The next 
challenge is completing the actual software development 
activity and the software application to ride on that hand-held 
to give the Census Bureau the user interface and the screens 
that they are looking for.
    Mr. Clay. And that will be completed when?
    Mr. Murray. The hand-held device will be delivered in 
October.
    Mr. Clay. Thank you.
    Mr. Turner, you are recognized.
    Mr. Turner. Thank you, Mr. Chairman.
    Obviously I know that in all the recent hearings we have 
had, everyone has expressed just how disappointed we are that 
we have all come to this point. Millions of dollars have been 
wasted; the program has been placed at list. The Senate and the 
House have repeatedly held hearings. Our subcommittee, when I 
was chair, had numerous hearings. Our current chairman had 
numerous hearings. The full committee has had numerous hearings 
on it, the Senate the same thing, with the intent of trying to, 
with the help of the GAO, which has repeatedly laid out the to-
do list or tasks that needed to be completed on trying to get 
this program back on track.
    One of the issues, obviously, when you have a program that 
is going awry is to look to the issue of accountability. For 
accountability, you look for who is in charge. I have a 
question here that our staff has proposed.
    In looking to the briefings that our staff has received, 
they have been told, and Mr. Murdock, you also today emphasize 
that the Associate Director in charge of the Decennial, Arnold 
Jackson, is the Bureau's single point of contact on resolving 
Decennial problems going forward. Yet our staff has concerns, 
because some of the information that they have received 
suggests that others in the Bureau may still be making 
significant changes to the field data collection automation 
program, without Mr. Jackson or around Mr. Jackson. Their 
concern goes back to what we saw when this program really begin 
to go off track, and that was the issue of too many cooks in 
the kitchen.
    So I have to ask, and I will start with Mr. Jackson, your 
thoughts on your ability to coalesce authority and what 
additional assistance that you might need or problems or areas 
where you see that perhaps we still might have too many people 
involved in the decisionmaking.
    Mr. Jackson. Thank you for that offer, Mr. Turner. I think 
in the last, I say 3 or 4 months that I have been involved at 
the head of the program I have been able to garner the support 
necessary from not only Director Murdock but from the 
Department of Commerce to make the decisions that need to be 
made as quickly as possible with the information that is 
needed. I would be the first to admit that we probably have 
fallen into a pattern of slow or bureaucratic decisionmaking.
    I have, I think, instituted a different culture. I am in 
daily contact with Mr. Murray at Harris Corp., around issues, 
around requirements, such that we are able to, whenever 
possible, resolve matters frequently within 24 hours or less. 
That is not perfect, but we are, I think, moving in the right 
direction.
    I am not sure who at the Census Bureau thinks that they are 
making decisions on FDCA that I am not aware of, but I am 
pretty confident that I have a structure in place to make sure 
that the responsibility and accountability is focused on me. I 
think there are several examples that Mr. Murray and I could 
give of decisions that are either pending or have been made, 
that I made with my staff in consultation in a very rapid and 
focused way.
    Mr. Turner. I appreciate that reassurance, because we are 
certainly looking forward to the effects of your leadership.
    Mr. Jackson. Thank you.
    Mr. Turner. Mr. Murdock, any comments?
    Mr. Murdock. We have certainly increased management 
intensity substantially at the Bureau. Mr. Jackson, I am sure, 
hears from me more times a day than he would like sometimes. We 
are constantly in interaction. We have increased not only the 
number of meetings and the times that I meet with him and other 
people in his program, we have instituted a number of other 
actions and are briefed weekly, for example, by the MITRE 
Corp., which is embedded in many of our team processes 
throughout the FDCA program and other parts of the census to 
keep abreast of what is happening.
    We are having substantial support from the Department of 
Commerce in this regard as well. I think our management team 
could not be working more effectively together than they are. 
It is very much a hand in glove operation with a single goal, 
and that is to produce an accurate and timely 2010 census.
    Mr. Turner. On that issue of chain of command, Dr. 
Providakes, could you please comment on that and also, Mr. 
Murray.
    Mr. Providakes. Comment on?
    Mr. Turner. On the issue of chain of command and the census 
and your belief of its effectiveness.
    Mr. Providakes. I am positive on the current program 
management structure and the decision processes which have been 
put in place in census. We talked about risks and concerns. We 
tend to get hung up on, I think to date, on the requirements 
process. I agree with Dave Powner and company that the key 
requirements are stable and have been stable for some time. 
They are a set of clarifications which occur as part of not the 
requirement process but the development process. We seem to 
lose sight sometimes that there is a development process that 
needs to occur to come up with the design and implementation of 
that design to fill the capability. The clarification process 
is in fact not unique, it is natural, it should occur, it 
should occur regularly and should it be conceived or perceived 
as a cost dimension to the process.
    So we have to transition from requirements process to 
development process, and that entails a close interaction 
between the Government side on the requirements and on the 
contractor's side as they begin to develop their design to go 
forth with an implementation.
    Mr. Turner. Mr. Murray.
    Mr. Murray. I want to echo what Mr. Jackson said. I would 
agree with his comments, the collaboration and cooperation 
between Harris and census has significantly improved. Mr. 
Jackson and I probably communicate two, three, four times a day 
to include Saturdays and Sundays. We are working very closely 
together at the executive level.
    At the working level team approach, we are working well 
together on that front as well. We have invited the Census 
Bureau to attend our cost reviews, our system requirements 
reviews, our detailed design reviews. The Census Bureau has 
invited us to attend their FDCA strategy session, so the 
cooperation and collaboration has improved significantly.
    Mr. Turner. Do our GAO panelists have any comment on this?
    Mr. Powner. We agree that the communication is improving. I 
think the decisionmaking pace, we are also seeing a quickening 
with that. As an example, there was one time we were talking 
about cost estimates coming in in the September timeframe. I 
think there was a push to move those dates up, so that we could 
renegotiate contracts sooner than later. That is one example 
where we see that pace quickening, and we just need more of 
that.
    Mr. Turner. Thank you.
    Thank you, Mr. Chairman.
    Mr. Clay. Thank you.
    The gentleman from Maryland, Mr. Sarbanes, is recognized 
for 5 minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Mr. Scire or Mr. Powner, the decision to abandon the hand-
helds with respect to the non-response followup, was that a 
result of testing or was that a result of other things that 
came up, making folks realize that it wasn't going to happen?
    Mr. Scire. I think it is a result of the experience in the 
address canvassing operation where the Bureau knew, going back 
into June of last year, that there were concerns about use of 
the technology. There was also some concern, I think, at the 
time, when the risk reduction task force was looking at this as 
to whether or not the Bureau had confidence that Harris could 
produce a solution for non-response followup in addition to 
producing a solution for address canvassing and the operation 
control system and field infrastructure. So I think it was a 
combination of those factors.
    Mr. Sarbanes. So the testing that is yet to happen, what 
are the possible outcomes of that testing? I guess they could 
range from concluding that the thing that you wanted to use, 
whatever technology is being developed for, that is not even 
going to work, right? That could be one result? What is the 
range of possible outcomes or conclusions that could come from 
the testing that is yet to happen?
    Mr. Scire. There is testing that is yet to happen, both in 
terms of the address canvassing operation, but also in terms of 
non-response followup. So there are corrections that the Bureau 
could make to operations potentially, in both of those, to the 
extent they are able to simulate an operation. So far as the 
software and the performance of the systems and devices, there 
is still opportunity to make changes there as well. I would 
defer to my colleague in terms of the technology.
    We talk about testing in the non-response followup 
operation. There are some things that the Bureau has not had a 
chance to rehearse, even though there are many things as a part 
of that operation they have done in the past. For example, they 
have never done a second mailing before. This is sort of 
getting into the operations. And the late mail return that they 
are going to be doing has not been tested in a dress rehearsal. 
So there is testing that we think they could do, or other ways 
that they might be able to provide you assurance that these 
operations, which are really going to be new in many respects 
for 2010, and in the case of late mail return, totally new, to 
assure that it will work.
    Mr. Sarbanes. I guess what worries me is that there is an 
absolute deadline.
    Mr. Scire. Right.
    Mr. Sarbanes. So you can envision a situation in which, at 
a certain point, you just start throwing things overboard, 
because you know you have to meet the deadline. And you have to 
start cutting corners, based on testing or maybe you haven't 
been able to test something fully, so you decide either to 
throw it out or just go with it without having tested it fully 
and come what may. So that is what I think is producing high 
anxiety here, and the fact that testing and other things has 
been pushed back so far has contributed to that.
    Let me go on. I am really interested in what the 
consequences are of not being ready. In other words, let's say 
we go into the census and we are only 80 percent ready when we 
started it and implemented it, or executed it. So what suffers? 
I would imagine that in the address canvassing portion of it, 
and in the non-response followup and other elements that we 
haven't even discussed, that the impact of it not being done 
well falls unevenly across the populations that you want to 
capture in the census. I am just guessing at that.
    But I would imagine there are certain households that are 
easier to address canvass than others, and there are 
communities, constituencies, whatever it is, populations out 
there who, if the system is not fully developed and tested, 
will come away from the census having been harmed in one way or 
the other. Of course, we know we use this information for all 
kinds of things.
    So speak to that. What are some of the impacts of not being 
ready in terms of the ultimate information we are trying to 
collect? Who might suffer more than others?
    Mr. Scire. The ultimate impact is that this could affect 
the quality of information, the quality of the count. It can 
affect the cost. And the Bureau tries to front-load a lot of 
its resources, so that in the event they need to throw more 
resources at an operation, it can. That is one risk mitigation 
technique that it is using.
    But you only have a finite amount of time, essentially, to 
do the work. So if you are not able to get it done within that 
amount of time, that could have ripple effects on subsequent 
operations. It could affect the quality of the data that you 
are collecting. And you are right, there are certain areas that 
are easier to canvass, to understand what the addresses are. 
Communities where there is not a lot of change in either new 
construction or other changes, you might have a more stable 
address list. In other communities, that may not be the case.
    The Bureau has worked over the decade to improve addresses 
and maps. So in some areas, especially that have changed, you 
may have a greater difficulty in those locations.
    The non-response followup, some households are more likely 
to respond than others. So you are going to----
    Mr. Sarbanes. We always have this aftershock from the 
census where there are different communities that come in and 
argue that they haven't been fully counted as a result of the 
process, because of various factors that are at play. What I am 
worrying about is that we are increasing the potential for that 
to happen if we are not ready. Then you are going to get these 
communities coming in later, making the case, then of course 
the cow has left the barn there, whatever the expression would 
be, at that point. There is not a whole lot you can do to 
compensate adequately for it.
    I have one real brief question. I just wanted to get a 
sense from the GAO, in terms of the intensity of focus, we were 
not very encouraged at the last hearing, has the Census Bureau 
now ramped up so that they are at 100 percent intensity in 
terms of what needs to happen between now and when this thing 
is executed? Or in your view, are they at 80 percent and need 
to get to 100? Or are they at 100 and have to stay at 100? 
Where would you say they are?
    Mr. Scire. Let me just briefly answer in terms of the 
operations, then I will turn it over to my colleague in terms 
of technology. The one thing where we do think there needs to 
be greater attention, I realize that the NRFU operation is 
something that has largely been done in the past. But there are 
some things that have not been done, there are also interfaces 
with systems that were not used before, and that in fact are 
being developed right now.
    So we think it is very important for the Bureau to be able 
to specify when it will complete and what it will do in terms 
of testing and other methods for assuring that operation will 
be ready to go, to get at your point about having sort of a 
drop dead timeframe. So we think that is very important for the 
Bureau to do.
    We also think it is very important for the Bureau to take a 
close look at the risks that are represented under the revised 
non-response followup operation and reassess the project level 
risk of that operation.
    Mr. Powner. I would say they are 100 percent focused now. 
The question is execution. And on that focus, I think they 
deserve credit for seeking the help of others. MITRE has played 
a large role in this. They mentioned the IT expert, Mr. Ron 
Ponder, who they have hired. He has a lot of experience in the 
telecommunications industry, managing contracts. Those are all 
steps in the right direction.
    So the focus is there. Now we just need to execute.
    Mr. Clay. Thank you.
    Mr. Issa, you are recognized for 5 minutes.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Murdock, do you agree that Congress has a lot at stake 
in getting an accurate decennial census?
    Mr. Murdock. Absolutely.
    Mr. Issa. And do you agree that it is important for us to 
stay engaged, as an oversight committee, to that end?
    Mr. Murdock. Yes, absolutely.
    Mr. Issa. And do you agree that an honest dialog between 
Members of Congress and the Bureau would be constructive to 
that end?
    Mr. Murdock. It is.
    Mr. Issa. Then I would ask, even though I know you 
personally would not have the time to do every meeting, would 
you be willing to make sure that in your stead, a senior staff 
person is made available at the request either of the chairman 
or the ranking member of the full committee, on a bi-weekly 
basis, if requested?
    Mr. Murdock. If requested, we certainly would provide 
someone, yes.
    Mr. Issa. I appreciate that.
    Additionally, staying with sort of the same line, would you 
say that clearly, both by statute and by constitution, you have 
to get an accurate count at this 10 year mark?
    Mr. Murdock. Yes.
    Mr. Issa. Would you also agree that since this is the 23rd 
that it has to be substantially as accurate and substantially 
similar in procedures of accuracy to the previous 22 counts?
    Mr. Murdock. Our goal for every census, I think, is to 
ensure that we have as accurate a census as possible. So 
accuracy and timeliness are the two paramount virtues of the 
census.
    Mr. Issa. Thank you. If the Congress demands that the 2010 
decennial census count every person living in the United 
States, any territory or possession of the United States or the 
Commonwealth of Puerto Rico and all Federal civilian and 
military personnel serving abroad, and that it is the sense of 
Congress that conducting the 2010 decennial census, the 
Secretary of State should use all legal and reasonable means to 
count every person living in the United States, any territory 
or possession of the United States, or the Commonwealth of 
Puerto Rico and the Federal civilian and military personnel 
serving abroad, if Congress demanded that, is that what you 
believe you would be doing as of today?
    Mr. Murdock. Yes. Our goal is to provide a timely census 
and a complete census.
    Mr. Issa. Mr. Chairman, to that end, I would ask that House 
Resolution 1262 be considered tomorrow at the markup as a 
timely reflection of today's hearing, recognizing that at this 
late date it may be difficult. But I believe you will find the 
resolution which staff has is really consistent with what these 
many hearings have done. I will ask that in lieu of asking that 
excerpts of Groundhog Day be put into the record. [Laughter.]
    Mr. Clay. I will take a look at the resolution and then 
consult with Chairman Waxman about the schedule for tomorrow.
    Mr. Issa. Thank you very much. The groundhog part really 
got to you all, didn't it? [Laughter.]
    It is interesting that we are back here again. To that end, 
let me ask probably the most important question for me, as a 
mid-term Congressman. I have been here 8 years, I expect to be 
here eight more, the Lord and the voters willing, particularly 
the latter, maybe. If the voters will, it could happen. So I 
would hope, in fact, maybe to be here long enough to see the 
next census.
    But let me ask a question. If the statute were changed 
after this census to call for a perpetual equivalent--I come 
from industry. We long ago gave up doing inventory by closing 
the factory for 2 or 3 or 4 days at the end of every fiscal 
year, telling the workers to go home and just having inventory 
managers count. It wasn't very accurate, it was difficult and 
it was inefficient.
    In your opinion, and I think it goes up and down, but if in 
fact we authorized and began providing the funds to convert to 
a perpetual census, and I know you do updates, but a perpetual 
census that allowed for a strategy of counts, obviously you 
might do an additional 10-year count to verify the accuracy of 
all the work you have done, but going to a perpetual count, so 
that the Census Bureau at all times was constantly updating, 
and at any time would have the highest level of accuracy it 
could have as a result of this perpetual, which is what we do 
in inventory, at least in the electronics industry, where I 
come from, would that be something that you believe Congress, 
with your help, should begin exploring?
    Mr. Murdock. We would certainly need to have our legal 
people and others look at this. I don't know all the issues 
that might be there legally or constitutionally. Certainly many 
countries have equivalents of population registers, where there 
is a continuous registering of moves and supplemented by 
censuses. But certainly we would be interested in looking into 
that.
    Mr. Issa. Mr. Chairman, just a quick followup. I am 
assuming that we get over both the statute and constitutional 
hurdles, so that we in fact are not dealing with that part. But 
from a standpoint of your agency, continuous operation at a 
level where your work force is steady, substantially steady, 
where your constant canvassing of regions or however you are 
doing it similar, the equivalent to what we do in industry, the 
question is, is that a goal that is reasonable to get a world-
class system, or do you believe we should stay with the do it 
once every 10 years, and quite frankly, reinvent the wheel 
every 10 years? That is really the question I would hope to get 
your thoughts on today. Because 12 years from now is very 
close.
    Mr. Murdock. It is a goal that we have already implemented 
in part in terms of what we refer to as the long form, the 
detailed questions, income, education, etc. We developed the 
American Community Survey. This now provides ongoing data for 
small areas on annual basis. And as you probably know from 
using the census in previous decades, if you were using 1990 or 
2000, what you found is that as you went on in the decade, 
those data on those factors became less and less applicable, 
because changes had occurred.
    Certainly we have done that in this area. I think steps to 
be taken that would get us toward such data on the basic 
population issues would certainly be desirable.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Clay. You are welcome.
    The gentlewoman from New York, Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman, for holding this 
hearing, and Mr. Waxman and Mr. Davis, and for your vigilance 
over the management of the census 2010, which is just 22 months 
away. I have several questions really about where you 
personally stand, Mr. Murdock, on the directives from the 
Commerce Department to turn the census into a sweepstakes 
lottery, or plans to experiment with an internet response, and 
why the largely successful census in the Schools program from 
2000 is being cut back.
    But central to all of these questions is standards. I would 
like to focus on really, what are your standards in evaluating 
any changes. Basically, when you evaluate the census operations 
that will be added or changed in the coming months--we only 
have 22 months--and what scientific standards the Census Bureau 
has published or at least has in place to make a judgment on 
these changes.
    For example, I have here an October 2006 decision memo from 
the Census Bureau on the evaluation process used to consider 
changes to the race question on the decennial survey. I ask 
unanimous consent to have it placed in the record.
    Mr. Clay. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0095.046
    
    [GRAPHIC] [TIFF OMITTED] T0095.047
    
    [GRAPHIC] [TIFF OMITTED] T0095.048
    
    [GRAPHIC] [TIFF OMITTED] T0095.049
    
    [GRAPHIC] [TIFF OMITTED] T0095.050
    
    [GRAPHIC] [TIFF OMITTED] T0095.051
    
    [GRAPHIC] [TIFF OMITTED] T0095.052
    
    [GRAPHIC] [TIFF OMITTED] T0095.053
    
    [GRAPHIC] [TIFF OMITTED] T0095.054
    
    [GRAPHIC] [TIFF OMITTED] T0095.055
    
    [GRAPHIC] [TIFF OMITTED] T0095.056
    
    [GRAPHIC] [TIFF OMITTED] T0095.057
    
    [GRAPHIC] [TIFF OMITTED] T0095.058
    
    [GRAPHIC] [TIFF OMITTED] T0095.059
    
    [GRAPHIC] [TIFF OMITTED] T0095.060
    
    [GRAPHIC] [TIFF OMITTED] T0095.061
    
    [GRAPHIC] [TIFF OMITTED] T0095.062
    
    [GRAPHIC] [TIFF OMITTED] T0095.063
    
    Mrs. Maloney. In this case, the Census Bureau made several 
decisions not to change the format of the race question. They 
made these decisions based upon criteria that was publicly 
shared and articulated in advance. Among the criteria listed in 
this memo are ``Changes to the Census 2000 question should be 
based primarily on evaluation of test data that demonstrate 
improvement to the quality, completeness and relevance of the 
data. Change will improve the results,'' ``adherence to 
protesting standards.''
    That last point is important. The Bureau insisted that no 
change to the questions should be implemented in the 2010 
census unless the changes were tested in the field. Now, we 
have to stress that the standards used here were ad hoc 
standards. That is, they were created just for the evaluation 
of the race question. The Bureau was not using uniform, Bureau-
wide, pre-established and debated standards. But at least they 
used some standards on this race question.
    So my specific question, Director Murdock, is if the Census 
Bureau insisted on public, pre-set evaluation standards on the 
race question, what are your public established standards for 
evaluating the sweepstakes lottery and shrinking the census in 
schools program?
    Mr. Murdock. Let me comment first on the specific programs 
that you have indicated. Those are both looking at incentives 
and looking at issues related to several other matters that 
have come from members of the Senate Oversight Committee. 
Senator Carper indicated an interest and asked us if we would 
look at this.
    But whether we are looking at this or any other issue, we 
would use a clear set of factors. The first thing I think that 
a director, myself or any other one here looks at is, will this 
impact the two major goals of the census, and that is 
timeliness and accuracy. If we think that it does, then we look 
at it, then we obviously don't go forward after an evaluation 
has been done.
    Within those, then we have to look at more detailed things, 
what does it mean in terms of cost, what does it mean in terms 
of schedule? Could it delay that census and key parts of that 
census, so that we couldn't interrelate the various processes 
successfully? We have to look at technical capabilities: are 
there things that we simply can't do in those, and we can't do 
because it will affect our two primary factors? And we have to 
look at regulatory requirements. Is there some way, for 
example, that what a certain process might do would impact 
Title 13 provisions and jeopardize the security that we provide 
to respondents in terms of what they are doing and what 
information we are providing from them?
    So we look at these and make our decisions relative to 
those kinds of basic criteria. It is often a tradeoff of a 
variety of issues. These two are very much just in the basic 
evaluation issue. If you look, for example, at the incentives 
project, what we have provided to the point in this is to 
provide people from the Department of Commerce with our past 
studies. There have been several in past censuses. Personnel 
from the Department of Commerce are taking the lead in looking 
at some of these issues.
    We will make that final decision and we will make that 
final decision on the basis of these kinds of criteria that I 
have just outlined for you.
    Mrs. Maloney. But basically my question is, with the race 
question, there were standards that were out there that we 
could look at and that scientists could look at. We haven't 
seen any standards or publicly established standards for the 
sweepstakes lottery and the census in the schools program. So I 
am very concerned that it doesn't appear that you or the 
committee have any standards to make these decisions, and we 
now have billions of dollars in increased costs with the 
likelihood of a less accurate census because of that.
    Mr. Murdock. I obviously would not agree with your first 
premise, and that is that we have no standards, that we are not 
interested in----
    Mrs. Maloney. Well, then, could you give the committee the 
published, established standards for evaluating the sweepstakes 
lottery and the shrinking of the census in the schools program?
    Mr. Murdock. I cannot at this point. But we do not, we will 
not go forward with those programs unless they are compatible 
with our other goals and the other decision issues that I laid 
out for you today.
    Mrs. Maloney. Basically when you make these decisions, you 
should have standards and they should be established and 
published, as you did with the race question. That is my point.
    My time is up, I thank you, Mr. Chairman.
    Mr. Clay. Thank you, Mrs. Maloney.
    Mr. McHenry is recognized for 5 minutes.
    Mr. McHenry. Thank you, Mr. Chairman.
    Thank you all for testifying today. We just, we have done 
this a number of times, a census in this country. It should be 
regular practice. But I think the concern for Congress is to 
make sure that everyone is counted. To that end, I just want to 
ask the Census Bureau, what are you doing to ensure that every 
individual is counted? In my State of North Carolina, the 
ramifications are pretty large. We could gain another 
congressional seat, whatever that means, but we could gain 
another congressional seat based on an accurate counting of the 
population. I would like to hear your thoughts, Mr. Murdock, 
Mr. Jackson, on how you are ensuring that is done.
    Mr. Murdock. We have a variety of programs, as you know, 
our whole goal is that, to ensure that everyone is counted. 
Some of our key programs in this area are a communications 
program which is ensuring that everyone knows to the fullest 
extent possible what it is that, the importance of the census 
and responding to the census. Even more important is our 
partnership program, which involves the hiring of specialists 
to work, particularly with hard to enumerate populations, to go 
out and find mechanisms that will increase their confidence in 
responding to the census and their feelings of safety and 
security in doing so. These specialists work with thousands of 
local organizations, not just Government, but Government as 
well, in looking at options that will increase the count, to 
ensure that we get as complete a count as possible.
    Mr. McHenry. To that end, Mr. Murdock, you had the dress 
rehearsal a year ago and it took a full year to address the 
problems that arose out of that dress rehearsal. Why the 
holdup?
    Mr. Murdock. In general, I am not sure of which specific 
problem you are talking about. But certainly, the dress 
rehearsals are just that, they are ways that we test how we are 
doing and then from there, determine how we can streamline 
processes and do what we are doing more effectively.
    Mr. McHenry. The schedule is tightening, is it not?
    Mr. Murdock. It is.
    Mr. McHenry. Do you foresee being able to get a full and 
accurate count by roughly the equivalent of the 2000 accounts, 
by the deadline?
    Mr. Murdock. Our goal is to get absolutely the best count 
that we possibly can, and our goal is always to be as good as 
past censuses.
    Mr. McHenry. Are you on schedule to do that?
    Mr. Murdock. I believe we are getting back on schedule. 
Certainly we still have challenges, we have risks that have 
been laid out here today. But we are getting back on schedule 
and I am confident we are going to.
    Mr. McHenry. So you are not quite back on schedule yet? So 
you are saying you are not on schedule but you are getting 
there?
    Mr. Murdock. We have made some major steps in getting back 
on schedule. We are still challenged relative to the fact that 
we have a lot to do in a short period of time. I believe we can 
do all of it, and I am confident that we will make all our 
deadlines. I think what we are seeing today is a number of 
other groups here today that are seeing that the same way.
    Mr. McHenry. What do you need from the Congress in order to 
get this done?
    Mr. Murdock. I think we need your ongoing support in terms 
of our programs, our budget and things as we go forward in 
time.
    Mr. McHenry. So is that financial? Do you need a larger 
appropriation to get this done?
    Mr. Murdock. We have that addressed in materials that are 
before you, and that will be in subsequent budgets.
    Mr. McHenry. OK. Going back, there is a, well, I would just 
mention this. UPS delivers an estimated 400 million packages a 
month. If you need some outside help, there are folks that 
actually know how to find houses in the private sector, and 
that have devices with which to track 4 billion packages a 
year. So what you are talking about is small in scope compared 
to a FedEx or UPS or a number of these other outside groups. 
Get some expertise in there. We have given you a substantial 
budget to do that.
    Back to the question for the GAO, much of what is discussed 
at this hearing is about the cost estimates, and with the 
Harris Corp., who is here, and MITRE, about their various cost 
estimates. Harris accounted for $1.3 billion for the followup, 
those that don't respond. And MITRE said, I guess the update is 
$717 million. It looks like, to me, just the obvious thing is 
that they are comparing apples to oranges. You can't have a 
doubling using the same underlying premises and the same 
modeling.
    Can you talk about the modeling? How is the modeling for 
these cost estimates? Is there a more accurate way that we can 
get a better cost estimate?
    Mr. Providakes. Let me try to address that a little bit. I 
don't think it is comparing apples and oranges. You start with 
the requirements. We spent an exhaustive measure looking at 
what we believe are the key requirements, which we believe have 
stabilized. We took those, we took like you said, our 
commercial practices regarding our model, we took the last 2 
years to assess the performance of the contractor, which is 
important to have as well.
    We looked at technology maturity, which again has advanced 
over the last several years significantly in this area. And you 
combine all that, you end up with an independent cost estimate. 
This is not something new that we haven't done before. We have 
done it considerably many times in the past, and as the GAO has 
mentioned, you generally find these cost estimates to be on the 
high side. They tend to be conservative.
    Mr. McHenry. Let me ask the GAO to address the question. At 
the end, I will give Mr. Murray an opportunity to respond as 
well. But if you could address the differences here. It looks 
like there are two different models. And I am not casting 
blame, I want to make sure that we have an accurate assessment.
    Mr. Powner. I think it is important to understand that the 
rough order of magnitude is a rough order of magnitude. What 
MITRE has is a detailed estimate. So the true comparison will 
occur once the detailed estimate is delivered from Harris July 
15th. Then we can really look at differences.
    But some of the areas that we know, and this is in our 
statement, that there are differences, if you roughly compare 
rough order of magnitude to the detailed estimate, it is in the 
software development and common support area. There are huge 
differences there, $200 million in software development and 
$300 million roughly in common support. We should not have 
differences that are that wide, even with the ROM. That is our 
professional opinion on that.
    Hopefully, we will see that shrinking, once the detailed 
estimate is delivered by Harris.
    Mr. McHenry. Mr. Murray, do you have any response to that?
    Mr. Murray. I agree with Mr. Powner. Essentially, we 
clearly had different assumptions between our ROM and the MITRE 
model. Instead of going and vetting the differences between 
those two, we are really trying to look forward, we are working 
with the Census Bureau to develop a very detailed comprehensive 
cost proposal. We are going to provide complete transparency 
for them to have insight into that proposal. It will be 
delivered on July 17th, and GAO and MITRE are welcome to review 
that document as well.
    Mr. McHenry. Thank you.
    One final thing, Mr. Chairman, if I may, to Mr. Murdock. To 
followup on the partnerships that you have, are there 
programs--my district is largely rural, a large portion of my 
district is rural. What are you doing to ensure that rural 
areas are included in your partnerships?
    Mr. Murdock. Rural areas are part of the partnership 
program. The partnership program isn't only an urban program, 
it is a rural program as well. So for example, the State that I 
am originally from, Texas, the partnership specialists have 
played a very important role in the past census in getting to 
communities that were in very sparsely settled areas and to 
ensure that they get as accurate and complete a count as anyone 
in a larger, major city does.
    Mr. McHenry. Thank you. Thank you, Mr. Chairman.
    Mr. Clay. Thank you, Mr. McHenry.
    Ms. Watson, you are recognized for 5 minutes.
    Ms. Watson. I sincerely want to thank the panelists for the 
information you are providing us. Address canvassing is the 
first major operation of the decennial census, and one that 
sets the stage for the success of the census. If an address is 
not added to the master list during the canvass, the people 
living at that address will receive a census form, will not 
have an enumerator come to the door and could be left out of 
the count. So training for address canvassing begins, as I 
understand, January 2009. And address canvassing dress 
rehearsal last year revealed problems with the hand-held 
computers, as has been mentioned, help desk and other essential 
systems. These are needed to be fixed before April 2009, when 
the canvass begins.
    Mr. Scire and Mr. Powner, GAO has reviewed the problems 
identified in the address canvassing dress rehearsal and the 
Bureau's supposed solutions. I understand you are most 
concerned about the performance of the hand-helds and the 
compressed time line for software testing.
    So what do you see as the key risks facing the Census 
Bureau with regard to address canvassing?
    Mr. Scire. I think it is completing the testing plan that 
they have laid out and maybe being even more aggressive in the 
time line that they have established. One of the things we 
pointed out in our statement is that the timeframe that they 
lay out for integration and testing of the hand-held computers 
actually overlaps with the operation for address canvassing. 
Obviously we will want to complete that before the operation 
actually begins.
    The time lines are very, very tight. So it is important for 
the Bureau to stay on top of this very vigorously to make sure 
that they are ready to go. There is another piece here, and 
that is the redesign for address canvassing is actually taking 
a dual track, if you will. For large assignment areas, the 
process will be different, or I should say large blocks, the 
process will be different. So we think it important that the 
interfaces and the linkages from the results from both of those 
operations are tested, and also that whatever sort of 
operational training or material or what have you that might be 
needed as a result of it, that's also tested and in place.
    Ms. Watson. Mr. Powner.
    Mr. Powner. I have nothing further to add.
    Ms. Watson. OK. Mr. Providakes.
    Mr. Providakes. I don't think I would have a lot more. 
Again, I want to get back to this notion of the risks 
associated with the program and trying to converge on the 
development. You do have this large discrepancy between the 
cost differences that--I believe Dave Powner is correct--have 
to get resolved when the detailed costs come in from Harris. 
Your date you had mentioned regarding the time all this has to 
get done, we have to quickly close on this issue regarding the 
development of the hand-held. As we had mentioned earlier, 
August 15th doesn't give a lot of time after that if there is a 
major issue regarding convergence on costs and performance 
associated with the contract negotiations.
    Ms. Watson. Are you suggesting moving that time up?
    Mr. Providakes. I agree with the chairman, if you could 
move that time line up, it would be fantastic. The census has 
done great strides moving it up already. It was originally even 
later than that. Moving it to July 15th or 17th is great. By 
August 15th is cutting it very close. You look at the test 
plans and converging, and how you go forward to meet the 
deadlines of testing and integration, of the integrated 
schedule and so forth.
    Ms. Watson. Dr. Murdock, can it be moved up?
    Mr. Murdock. We have pushed that up substantially. I think 
we are a place now where we have come to an agreement about 
when we can obtain the information that is necessary. We 
continue to push to get information from these sources in a 
timely manner. I think we are doing about as well as we can on 
this, I think we have pushed this a great deal and that we will 
expedite everything after those decisions to make sure we can 
meet the goals.
    Ms. Watson. I represent a State, California, and it is the 
first State in the Union that is a majority of minorities. I 
have somebody who sits on the Census Board who reminds me all 
the time that there are patches of, say, South Pacific 
Islanders that seem to get lost in the count. I know in parts 
of my district, I represent Los Angeles, Culver City, 
Hollywood, that area, parts of South Central, we always have a 
double digit under-count.
    So how are we preparing with the new technology to be sure 
that we count people who might not be in the State through the 
proper channels, but they are there? Children are going to 
school. And I am concerned, I have to call the enumerators into 
my office every decade and say, did you go over the liquor 
store, did you go over the cleaners, did you go to the 
playground on Sunday when people come from Mass and they have 
all their children out there? Because an under-count means that 
we cannot qualify for programs based on certain populations and 
numbers.
    So I am really concerned that we get it right this time. 
And anyone who would like to can comment.
    Mr. Murdock. We certainly are very concerned as well. We 
recognize the kinds of difficulties that you are talking about. 
Our programs and our regional directors through the partnership 
programs and other aspects are certainly addressing these 
issues. But any help anyone can give us, if your office can 
help us in terms of identifying areas that we might otherwise 
miss, we would be glad to work with you to ensure that we get a 
complete count of all the people in your district if possible.
    Ms. Watson. Yes, we are going to work with you on this, 
because I want to be sure you are going to the places where 
people actually live. One person might come to the door, but 
there will be 12 people sleeping in those beds in that 
apartment. So I want to be sure that we do it correctly and 
accurately. Thank you very much.
    Mr. Clay. Thank you, Ms. Watson.
    Mr. Providakes, given the gap in estimates, it might take 
some time for the Bureau and Harris to come to some agreement 
on the final costs of the contract. In your professional 
opinion, what deadlines should the Bureau set for final 
agreement and what criteria should the Bureau set for a 
decision?
    Mr. Providakes. I think August 15th is an important period. 
You need to converge on the cost, schedule and performance 
associated with negotiation of the contract. That is an 
important time. We are in a situation where the schedule is 
fixed, there is cost in this performance and as the schedule 
continues to slip, you start sacrificing performance, as was 
mentioned earlier. At the same time, costs will continue to 
also increase.
    Mr. Clay. Considering the level of uncertainty surrounding 
FDCA, would it be prudent for the Bureau to have contingency 
plans?
    Mr. Providakes. Most definitely. It is not so much, I think 
when you are dealing with risk, risk is about having options. 
The Bureau always has options in developing IT. That is an 
important dimension to have.
    Mr. Clay. What should Bureau officials include in the 
emergency plan, in the contingency plan to avoid irreparable 
damage from further contract delays?
    Mr. Providakes. The set of options, clearly you need to 
look at, from the hand-held perspective, the viability of the 
technology and having in place what you can do in trading off 
performance. So there is a degree, what I can mention, there 
are key requirements that need to be captured and there are 
other requirements. The Bureau has already identified and 
prioritized those key requirements. As you go forward, if you 
decide that other options have to be put into place after 
August 15th, I think you could step back and look at the 
performance issues and what other vehicles do you have to 
provide the technology, in this particular case, a hand-held 
device that may be viable.
    I know that from our perspective, helping us better 
understand the interpretation of those requirements and coming 
up with a cost estimate, we ourselves developed what is called 
a technical reference model, a design, and looked at the 
viability of that design that could be hosted on commercial 
hardware and commercial software best practices to better 
understand the degree of risk that the Bureau may be facing as 
we go forward.
    Mr. Clay. What was your conclusion from your test?
    Mr. Providakes. This is not advanced technology, that is a 
myth. The technology is readily available today, to go forward 
with a hand-held device that would help augment, and as 
Director Murdock suggested, help the effectiveness and 
efficiency and accuracy of the count to get some of those 
issues. That technology, I think, is important to visit, and 
the technical reference model, as we have discussions with 
Harris in terms of their design. Understanding the difference 
in cost could be as simple as, one, do they understand the 
requirements from a contractor perspective, why the delta in 
costs, why they have those additional risks built into their 
costs, and perhaps the approach methodology that was used 
several years ago, there may be a way to modulate that to get 
us back in line based on cost, schedule and performance. That 
is part of the negotiation process that would occur once we 
have a detailed model between July 17th and August 15th that we 
can get together and really work through.
    Mr. Clay. I look forward to that. Thank you for your 
response.
    Mrs. Maloney, any more questions?
    Mrs. Maloney. Yes, thank you, Mr. Chairman.
    Mr. Director, as you know, I wrote you yesterday, asking 
that you be prepared to answer some questions today on the 
issue of fingerprint. As you know, the census staff a few weeks 
ago said the decision was made to go ahead and plan to 
implement procedures to fingerprint all the temporary employees 
who were working the census at a cost of $340 million and run 
their prints through the FBI data base.
    Then we were told that the decision was not made, and that 
it would be made by Commerce. And now we are told that the 
answer is yes, you are doing it.
    In 2000, the Bureau asked and was given a waiver from the 
fingerprinting requirements, although all employees' names were 
checked, not just their fingerprints, because of the expense 
and the impact the procedures would have on the census 
operations.
    So I have a few questions about this. Why was the decision 
just made last night--we are 22 months away from the census, 
and we could have used some planning. What were you waiting 
for, and what information from the 2000 was used to make this 
decision?
    Mr. Murdock. Let me say in terms of the decision, I can't 
say why it wasn't made 22 months ago. I can say that there were 
details being worked out that have just come together. The 
decision was one that was recommended by the Bureau, to go to 
fingerprinting, and in turn, that the Secretary concurred with 
and has made a similar recommendation.
    Let me explain a little bit the details of that, and why we 
are where we are. This is a very difficult process, it is a 
very difficult decision for a lot of reasons. One is that it is 
a costly process and we have been funded to look at this during 
this year and to come up with some alternatives on cost. So 
whatever you have heard in terms of cost, I wouldn't be tied to 
that particular figure. We are looking at different ways of 
doing the process.
    But it is an expensive process. And some of the questions 
that you forwarded to me yesterday indicated, when you look 
into those, it would be very costly per individual, if the 
records of the 2000 census are correct. We find four cases, if 
you will, of Census Bureau employees that were accused of 
crimes and in all cases, our records show that either charges 
were dropped or they were acquitted in terms of those 
particular factors.
    There was a lot more of our enumerators that were costed in 
a variety of ways in terms of the process. So from a cost 
standpoint, it is a difficult one. It is also difficult because 
we are concerned about the inhibiting effect of fingerprinting 
on obtaining the kind of work force that we need in some of the 
most difficult areas of the country to count. So both of these 
factors are there.
    On the other hand, we have a prime responsibility to ensure 
the safety and the security of the American people. We have 
been advised by OPM that we should do fingerprinting. And 
although the Federal Bureau of Investigation has provided us 
with an indication that here are some ways that we could obtain 
an exception, they say they recommend that we do 
fingerprinting. I think it would be irresponsible for the 
Director of the census to leave to his or her successor the 
issue of deciding not to do fingerprinting, when the 
implications of even that rare event occurring I think would be 
absolutely devastating to the census. One would find oneself, 
if you will, in front of a group trying to explain why you 
didn't do everything you could do to prevent that, particularly 
when it was the law of the land.
    So we made this very difficult decision, I made this very 
difficult recommendation on the basis of balancing off those 
factors.
    Mrs. Maloney. As you know, many of us have been strong 
supporters of your budget, so I would like to ask a few 
questions about the budget. Yesterday, Mr. Director, OMB sent 
up to Congress a budget amendment for fiscal year 2009, 
apparently asking for an additional $546 million for census to 
begin to cover the increased costs of doing the census using 
paper and not the hand-held for non-response followup. Mr. 
Director, how much did you ask for? Did you ask for more than 
$546 million? How much did you ask for?
    Mr. Murdock. This amount that we received we believe is 
sufficient to address the needs that we have. It will allow us 
to do the very important things that you are aware of in terms 
of the new redesigned and remodified census. It is an amount 
that we believe will be successful.
    Now, where the uncertainties are, for example, are that 
this, as we go forward, what we have to rely on in terms of 
contractor costs, because we have not yet renegotiated the 
contract, is we have to use those from the previous ROM 
analysis. So those will obviously be changed. They will 
obviously be different when we go forward.
    But we believe this is a budget that will get us what we 
need and will be successful.
    Mrs. Maloney. Did you get all that you requested? That is 
my question. How much did you ask for? They sent $546 million. 
Did you ask for more?
    Mr. Murdock. That is the increase that we received, yes.
    Mrs. Maloney. But did you get all you requested? How much 
did you ask for in your budget request?
    Mr. Murdock. I would have to check the exact details. We 
obviously, I don't think, in a budget process, one never gets 
everything that one asks for.
    Mrs. Maloney. That is true, but I think as an oversight 
committee, we are entitled to know what you felt you needed and 
I think you should go back to the office and send us the 
information.
    Mr. Murdock. I will be glad to provide that information.
    Mrs. Maloney. Because maybe we want to fight for what you 
thought you needed in your budget request.
    Mr. Murdock. We will certainly provide all appropriate 
information that you desire.
    Mrs. Maloney. And are there any operations that you needed 
to fund which were not fully funded or were not funded at all?
    Mr. Murdock. One of the aspects of our budget that I think 
is very important to understand is that we were provided with a 
large contingency aspect to our budget. In that, one of the 
things that we will need to address if we decide to go forward 
with the process that is beyond the very specified level of $10 
million for fingerprint is we will have to take out of that 
contingency. That contingency, however, is a large one, $200 
million, and it is one that we think is sufficient to address 
the issues that are likely to confront us.
    Mrs. Maloney. Given the state of the census and planning, 
do you think that request is enough funds to fix what is wrong 
with the census and to ensure the accurate 2010 census is at 
least as accurate as 2000?
    Mr. Murdock. We believe it is. There is the uncertainty, 
which I specified before, of what we will end up with in terms 
of the final contract price. If it goes in the direction that 
it might go, I think that will make it easier for us. But 
certainly that is a major uncertainty that we will only know as 
we get through the contract negotiation process.
    Mrs. Maloney. My time is expired, and I join my colleagues 
in thanking all the panelists for this really very important 
job that you are undertaking and for your testimony today. 
Thank you.
    Mr. Clay. Thank you, Mrs. Maloney.
    Ms. Watson.
    Ms. Watson. Thank you.
    Finally, we want to see this the most accurate and complete 
census as we go into a new decade. Is there any reason why you 
cannot tell us at this moment the amount of money that was 
appropriated to you? Because as my colleague just mentioned, we 
would like to be as helpful as possible. That is why we are 
having this hearing, and that is why all the panelists are 
here. We want to be sure that the new technology that we have 
invested in actually gives us the most positive, complete and 
accurate results possible.
    Is there any reason why you can't round off a figure that 
you know has been appropriated?
    Mr. Murdock. As I said, I don't have the figure right in 
front of me. We will give you all appropriate information 
that----
    Ms. Watson. Wait a minute. You are the director, Dr. 
Murdock.
    Mr. Murdock. Yes.
    Ms. Watson. And we have been asking questions about 
timetables and are you ready and so on. We are just here to be 
helpful to you. Give me a round figure.
    Mrs. Maloney. Will the gentlelady yield?
    Ms. Watson. I would yield.
    Mrs. Maloney. I believe, my dear colleague, that the budget 
director is sitting behind him. Maybe he has the number. Would 
it be appropriate for him to answer? I yield back the time to 
my colleague.
    Ms. Watson. You know, I can't understand the mystery with 
all this unless Commerce said, don't answer them. So would you 
like to, budget director, would you like to comment?
    Mr. Tyler. There were internal discussions within the 
administration----
    Ms. Watson. Beg pardon?
    Mrs. Maloney. Could you come to a mic? We can't hear you.
    Mr. Tyler. My name is Jay Tyler. I am the Budget Director. 
There were internal deliberations within the administration. 
The number that we received, the increase in terms of the 
amendment for 2009 was $546 million.
    Ms. Watson. Mic, please.
    Mr. Tyler. The number that has been requested in the 
amendment is $546 million. I think really what is in question 
right now is the final number, once we go through contract 
negotiations with Harris. I believe that the Census Bureau is 
comfortable with that $546 million.
    Ms. Watson. Are you comfortable with it, Mr. Murdock? Can 
you get everything done in time?
    Mrs. Maloney. Excuse me, will the gentlelady yield?
    Ms. Watson. Yes, I will yield.
    Mrs. Maloney. How much did you request? How much did you 
ask for? We know the budget amendment was $546 million. But how 
much did you ask for? That is the question we are asking.
    Mr. Tyler. The Census Bureau asked for $738 million.
    Ms. Watson. Oh, OK.
    Mrs. Maloney. Seven hundred thirty-eight million. OK. Thank 
you. I yield back to my colleague.
    Ms. Watson. Thank you so much. I think that sheds some 
light. You are shorted $200 million, plus or minus. Can you get 
everything done?
    Now, I know this is internal politics over there in the 
Department of Commerce. But come on, all of you were sworn in. 
Let us know. Can you, with the amount, $546 million, really do 
the job?
    Mr. Murdock. I believe the answer is yes, given the ongoing 
contract negotiations that we have going with Harris. This is 
the figure that we settled on with OMB. And we think we can do 
it for this amount of dollars.
    Mrs. Maloney. Will the gentlelady yield?
    Ms. Watson. I would be happy to yield.
    Mrs. Maloney. I believe what my esteemed colleague is 
trying to get at, and what we are trying to understand is, we 
want to help you do a good job. So we want to know 
specifically, what did you ask for in this $700 million 
request, and what the difference is. Did you have a program 
that you wanted to implement that they did not fund? Maybe the 
budget director can answer, and I yield back to my esteemed 
colleague. Specifics.
    Mr. Murdock. The majority of it, the vast majority of it, 
was a reduction in the amount that had been initially budgeted 
for the Harris contract. The vast majority of it. I would have 
to look to see exactly, but it is nearly all of it.
    Ms. Watson. Reclaiming my time. I ask this often of people 
who work in various agencies. If you could get what you really 
needed, blue sky it, don't worry about our budgeting, what 
would you really need? And I don't think--I think you are 
underselling what you really need. If you asked for over $700 
million and you only got a little over $500 million, then there 
is a gap. So can you respond?
    Mr. Murdock. I would agree in normal circumstances that 
would be the case. In this case, where we are today, is with a 
situation where we have a large difference between an 
independent Government cost estimate and a ROM from the 
contractor. These are large differences, as everyone has 
pointed out. Where we end up in that contract makes a great 
deal of difference on whether or not the funds that we have are 
adequate. We have had to do this budgeting process with these 
uncertainties.
    Now, do we wish we did not have these uncertainties? Yes, 
we do.
    Ms. Watson. OK. I just wanted to know if you were, Dr. 
Murdock, pushing for the maximum amount that you think you are 
going to need, negotiating with contractors----
    Mr. Murdock. Let me tell you that----
    Ms. Watson. Let me just finish, because I want to put it 
out there--to do the job. I am concerned in my own State of 38 
million people, growing by 2,000 every day, that we have the 
best count that we can ever have taken this new decade. And I 
say, just blue sky it. I know all of the problems with the 
budget, and I know probably what your directions were, don't 
tell them a thing.
    But what would you like to see?
    Mr. Murdock. Let me make two points clear.
    Ms. Watson. Please.
    Mr. Murdock. One is that I am pushing for every single 
thing, because I want us to have a successful census.
    Ms. Watson. Thank you.
    Mr. Murdock. Second, if we find ourselves needing 
assistance, if we find ourselves needing additional money, we 
will be pushing that process as well.
    Mrs. Maloney. Will the gentlelady yield?
    Ms. Watson. I would be pleased to yield.
    Mrs. Maloney. Possibly it would help the committee members 
and the chairman in our oversight responsibilities if we could 
request the document, the original request that was sent in, 
the $700 million. I know you don't have it with you today, but 
could we have that as part of the committee record? I yield 
back to my esteemed colleague from the great State of 
California.
    Mr. Clay. All time has expired. There are two key dates 
that this committee looks forward to with growing anticipation, 
July 17th and August 15th.
    Let me thank the entire panel for their testimony today. We 
will await further action.
    This hearing is adjourned.
    [Whereupon, at 12:08 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
